VIA FEDERAL EXPRESS AND ELECTRONIC FILING
June 5, 2020
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Friend v. State of Indiana, No. 19-1214 in the Supreme Court of the United States

Dear Mr. Harris:
I represent petitioner in the above-captioned matter, which is currently pending before this
Court on a petition for a writ of certiorari. In accordance with this Court’s Rule 15.5, petitioner
hereby waives the 14-day waiting period for distributing the petition and respondent’s brief in
opposition to the Court.
We appreciate your assistance.
Regards,

J. Carl Cecere

Cc:

Counsel of respondent
(see attached service list)

SERVICE LIST:
Friend v. State of Indiana, No. 19-1214
Thomas M. Fisher
OFFICE OF THE ATTORNEY GENERAL
IGC South, Fifth Floor
302 W. Washington St.
Indianapolis, IN 46204
Tom.Fisher@atg.in.gov

